The Deserve® Card Cardholder Agreement
July 2020
The Deserve® Card Cardholder Agreement for Cards issued by Celtic Bank
This Deserve® Card Cardholder Agreement (“Cardholder Agreement”) outlines the terms
and conditions under which The Deserve® Card Mastercard (the “Card”) is issued to You
by Celtic Bank, a Utah-Chartered Industrial Bank, Member FDIC ( “us,” “we,” “our,” or the
like). . Please review this in detail to be sure You understand all of the terms and
conditions with using this digital Card.

There are three main parts to this Cardholder Agreement: Pricing Information, Customer
Agreement, and Your Billing Rights. The Pricing Information shows the primary pricing
terms for this Card for new accounts available under this Agreement. The Customer
Agreement contains important information related to how we will administer the credit
card program. Plus, any other disclosures or notices that are referenced or issued are part
of this Agreement. Your Billing Rights summarizes certain rights provided to You by law
that are related to billing on Your Card account (“Account”).
THIS AGREEMENT REQUIRES CLAIMS TO BE ARBITRATED AND FORBIDS CLASS
ACTIONS UNLESS YOU (1) ARE SUBJECT TO THE PROTECTIONS OF THE MILITARY
LENDING ACT OR (2) EXERCISE YOUR RIGHT TO REJECT ARBITRATION AS PROVIDED
IN THE ARBITRATION PROVISION OF THIS AGREEMENT.
PRICING INFORMATION
Interest Rate and Interest Charges
Annual Percentage Rate

14.99% to 24.99%, based on Your creditworthiness

(APR) for Purchases

when You open Your Account. This APR will vary with the
market based on the Prime Rate.

APR for Balance Transfers N/A (Balance Transfers are not available)
APR for Cash Advances

N/A (Cash Advances are not available)

Interest Rate and Interest Charges
Your due date is at least 23 days after the close of each
How to Avoid Paying

billing cycle. We will not charge You any interest on

Interest

purchases if You pay Your entire balance by the due date
each month.

Minimum Interest Charge

For Credit Card Tips from
the Consumer Financial
Protection Bureau

If You are charged interest, the charge will be no less than
$1.00.
To learn more about factors to consider when applying
for or using a credit card, visit the Consumer Financial
Protection Bureau’s website
at http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees
•

Balance Transfer

•

N/A (Balance Transfers are not available)

•

Cash Advance

•

N/A (Cash Advances are not available)

•

Foreign Transactions

•

None

Penalty Fees
•

Late Payment

•

Up to $25

•

Over-the-Credit Limit

•

None

•

Returned Payment

•

Up to $37

How We Will Calculate Your Balance: We use a method called Average Daily Balance
(including new purchases). See Customer Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise
those rights is provided in Your Agreement.

CUSTOMER AGREEMENT
Welcome to The Deserve® Card by Celtic Bank!
Thank You for opening an online credit Card Account with us. This Customer Agreement
(“Agreement”) contains the terms for Your Card.
Some Definitions.
The meanings of the terms You see in italics appear in the Glossary Section. We also have
links to certain terms and definitions.
To make the Agreement easy to understand, we will also use the following personal
pronouns “You,” “Your,” and “Yourself” mean each applicant for the Account; any person
responsible for paying the Account; and anyone You authorize to use, access or service the
Account.
“We,” “us,” “our,” “Celtic Bank” means Celtic Bank, a Utah-Chartered Industrial Bank,
Member FDIC; and its agents, authorized representatives, successors, and assignees. All
Deserve cards are issued by Celtic Bank.
Things You Should Know About This Card
How are the Balance and Interest Charges calculated?
We use the Average Daily Balance Method (Including Current Transactions).
We figure the interest charge on Your Account by applying the periodic rate to the
“average daily balance” of Your Account. To get the “average daily balance” we take the
beginning balance of Your Account each day, add any new purchases/fees, and subtract
any unpaid interest or other finance charges and any payments or credits. This gives us
the daily balance. Then, we add up all the daily balances for the billing cycle and divide
the total by the number of days in the billing cycle. This gives us the “average daily
balance.”

How is Your Variable APR Calculated?
•

Your variable Annual Percentage Rate (APR) is calculated by adding a margin
(currently between 11.74% and 21.74%) to the Prime Rate.

•

We use the Prime Rate from the rates section of the Wall Street Journal, published
two business days before the end of the Billing Cycle.

Your Daily Periodic Rate (DPR) is 1/365th of the corresponding APR.
If the Wall Street Journal does not publish a rate on that day, we will use the Prime Rate for
the previous business day. If the Wall Street Journal is no longer published, we may use the
Prime Rate from any other newspaper. Or, we may choose to use a different, similar
published rate.
If the Prime Rate increases, Variable APRs will increase. In that case, You may pay more
interest and may have a higher payment or balance due. When the Prime Rate changes, the
resulting changes to Variable APRs take effect as of the first day of the next Billing Cycle.
How can I avoid paying Interest Charges?
If You pay Your statement’s “New Balance” in full by the due date, we will not charge
interest on any new transactions that post to the Purchase balance. If You have been paying
Your account in full with no interest charges, but then You do not pay Your next “New
Balance” in full, we will charge interest on the portion of the balance that You did not pay.
How is the Interest Charge applied?
Interest charges accrue from the 1) date of the transaction, 2) date the transaction is
processed, or 3) first calendar day of the billing period. Interest charges accrue on every
unpaid amount until it is paid in full. This means You may owe interest charges even if You
pay the entire “New Balance” one month, but did not do so for the previous month. Unpaid
interest charges are added to the proper segment of Your Account. However, we reserve
the right to not assess interest charges at any time.
Can You Change My Account Terms?
Although we don’t plan to, we can change some terms of Your Account as permitted by law.
If we do change any of the terms in this Cardholder Agreement, we will send You notice

before doing so. Please review this Cardholder Agreement in full to be sure You understand
the current terms for Your Card.
Your APR, daily periodic rate, and interest charges will change if the Prime Rate
changes.
Account Documents.
Your Account with us is governed by the following documents:
•

this document;

•

all Statements;

•

any Privacy Notices describing our limitations on sharing information about You
with others;

•

any Card benefits brochure which describes benefits provided by the Payment Card
Network for Your Card and Account. The most current version of Your Card benefits
brochure will replace all prior versions;

•

all disclosures and materials provided to You before or when You opened Your
Account, including Truth in Lending Disclosures;

•

all other documents and disclosures relating to Your Account including those
provided online; and

•

any future changes we make to any of the above documents.

Please read these carefully and keep them for future reference. An image of any of these
can be used instead of the original.
New Offers.
In the future, we may make new offers to You or forward offers from others that we think
You might be interested in. These offers may have different terms and documentation
which will be provided when we make You the offer. If You accept the offer, all previously
disclosed terms will still apply except as modified by the offer.

For more information about what we and our service providers may share and how to opt
out, please review the Privacy Notice. You can see how we and our service providers
collect, use and store Your data in our Privacy Policy.
Consent to Electronic Documents.
We are committed to offering services to You in a convenient, controlled, and secure
manner. Therefore, the online Card application and approval process has been designed
around the expectation that all documents and information required to be provided to You
will be provided electronically. Any written or electronic notice or communication we send
to You will be effective when made available in the App, when sent to the email address
associated with Your Account, or, if You have withdrawn Your consent to electronic
communications, when mailed to the address associated with Your Account. By proceeding
with the online application or activating Your Card, You agree to the terms detailed in our
Electronic Consent Policy, as amended from time to time. Please review this Policy to
ensure You understand and agree with all of the terms; while we have summarized our
terms and conditions here, the Electronic Consent Policy details all of Your and Our rights
and obligations.
If at any time after You submit the application You change Your mind and wish to no longer
receive documents and information electronically, please notify us as detailed in the
Electronic Consent Policy. Understand that this may result in an adverse decision on Your
Application.
Account Information and Contact
We need information about You to manage Your Account. The information we need may
include:
•

Your legal name;

•

a valid U.S. mailing address and residential address (if different);

•

Your date of birth;

•

Your Social Security Number, Passport Number, and/or other government
identification number, if available;

•

Your telephone number(s);

•

Your employment, income, and asset information;

•

Your educational history and information;

•

Your citizenship status and information; and

•

other related information as deemed necessary.

You must promptly notify us of any change to Your name, mailing or email address, or
phone number by contacting us. We may rely on Your email address or mail address as it
appears on our records and any email address that You associate with Your Deserve Card
for any and all Account communications we send to You unless and until You notify us of
any changes. We may also, in our sole discretion, update Your mailing address if we receive
a notification of change from the U.S. Postal Service. You may also update some of this
information by logging onto Your Account via the Mobile App or by calling one of our
representatives at the telephone number provided on Your Statement or in the App.. We
may require You to provide additional documents that are acceptable to us to verify this
information or any changes. We maintain the right to restrict or close Your Account if Your
information cannot be verified or if You do not provide additional information as
requested.
You agree that we may contact You using any technology and methods of our choice. This
includes using an automated telephone dialing system or other similar system to contact
You by email, text message, device-level notification, or other electronic notification
method supported by the software You use to access Your Account. We may use any
telephone numbers (including wireless, landline and voice over IP numbers) or email
addresses that You give to us. You understand and agree that anyone with access to Your
telephone or email account may listen to or read the messages that we leave or send You.
You agree that we will not be liable for any charges that You incur in connection with
emails, text messages, device level notifications or other communications that we or our
agents and representatives send to You. You agree to notify us immediately if You change
telephone numbers or are no longer the subscriber or usual user of a telephone number
that You give to us. You agree that we may monitor, record, retain and reproduce Your
telephone calls and other communications with us. At any time, You can withdraw Your
consent to receive text messages through a telephone network (e.g., SMS) or to receive calls

through a telephone network. To revoke Your consent, You must contact us in accordance
with this Agreement.
You also give us permission to verify or research, with or without a third party, the
information You provide to us. This permission includes, without limitation, verifying or
researching Your information with that of any or multiple third party identification and/or
verification service(s), United States Department of Homeland Security, and/or the United
States Department of the Treasury.
The Deserve Card
There is no fee from Deserve or Celtic Bank to access our App, but You should check with
Your mobile service provider about charges for data, text messages, and internet access.
When a new version is available or for critical updates, You may need to visit the app store
that provides apps for Your device.
Your Deserve Card Account eligibility is based upon our ability to authenticate You. If You
are eligible for a Deserve Card You will receive online Card credentials (Card Number,
Expiration Date and CVV) that You can use. Your Deserve Card can be added to Your digital
wallet and used to make in-person purchases anywhere Your digital wallet is accepted and
a physical card will not be required. The Deserve Card can be used to make online
purchases anywhere Mastercard is accepted. Using the Deserve App allows You to view
Your balances, credit limit, and recent transactions, to make payments, and more.
Credit Limit.
When You open Your Deserve Card Account, You will receive Your credit limit. This will
also appear on Your Statements. We might also refer to Your credit limit as Your credit line.
You are responsible for keeping track of Your Account balances and Your available credit
limit. Do not allow Your Account to go over any credit limit, as the transaction could be
declined or Your credit score could be adversely affected. We may still honor transactions
above Your credit limit, but our honoring of these transactions will not increase Your credit

limit. We may also increase, decrease, restrict, or cancel Your credit limit at any time. This
will not affect Your obligation to pay us.
Using Your Account.
You promise to follow the terms of this Agreement as long as Your Account remains open
or has a balance. Any physical card You may receive in the future should be signed when
You receive it. The card will be valid during the dates provided on the front. You will take
reasonable steps to prevent the unauthorized use of Your Card and Account.
We are not responsible if anyone refuses to accept Your Card for any reason. Also, we may
reject any transaction for any reason. Unless we tell You otherwise, we will bill each
transaction to the applicable Segment of Your Account and apply it against Your available
credit limit for the Account and Card for that Segment in each Billing Cycle.
You must not use, or try to use the Card for any Internet gambling transactions or
transactions that are illegal or not permitted by us. You will still be responsible or such
transactions if You do. In addition, these transactions will be subject to this Agreement, and
You might have to reimburse the Payment Card Network and us for all damages and
expenses.
From time to time, due to circumstances beyond our control (such as system failures, fires,
floods, natural disasters, or other unpredictable events) our services might be unavailable.
When this happens, You might be unable to use Your Card or obtain information about
Your Account. We will not be responsible or liable if this happens.
Protecting Your Account Information and Credentials
You are solely responsible for maintaining the security of Your Card, Your telephones and
their passcodes, and any other authentication credentials used in connection with Your
Account (collectively, Your "Credentials"). If You authorize or allow anyone else to use Your
Account (e.g., by providing the passcode to Your telephone, allowing a third party to set up
facial or touch identification, or otherwise providing any of Your Credentials to a third
party), the person may be able to make Transactions using Your Account, and You will be
liable for all Transactions made on Your Account by that person.

Your Promise to Pay.
You promise to pay us all amounts due on Your Account. This includes amounts where You
did not sign a purchase slip or other documents for the transaction. If You use Your Card
number without presenting Your actual Card (including without limitation mail, telephone,
or internet purchases), this will be treated the same way as if You used the Card in person.
If You let someone else use Your Card, You are responsible for all transactions that person
makes. Your promise to pay us will apply to Your estate if You die.
Statements.
We will send You one Statement for all Cards on Your Account unless the law does not
require or permit us to send a Statement. Statements will be sent at the end of each Billing
Cycle when Your Account has a debit or credit balance of more than $1.00, or if we have
charged any Interest Charges to Your Account. Your Statement will show all transactions
billed to Your Account during the Billing Cycle along with other important Account
information.
Disputed Transactions.
You must inspect each Statement You receive and tell us about any errors or questions You
have as described in the “Billing Rights Summary” part of Your Statement and other Truth
in Lending Disclosures. If You do not notify us as provided in those disclosures, we may
assume that all information in the Statement is correct.
If You dispute a transaction made by You or someone else on Your Account, and we later
credit Your Account for all or part of the disputed amount, You give us all of Your rights
against that other person. You also will:
•

give us any merchandise or other purchases You received in connection with the
disputed amount if we ask;

•

not pursue any claim or reimbursement from the merchant and that other person;
and

•

help us pursue and get reimbursement from the merchant and that other person.
Your help includes giving us documents that we ask for and that are acceptable to
us.

Interest Charges and Fees.
We will charge Interest and Fees to Your Account as disclosed to You in Your Statements
and other Truth in Lending Disclosures. In general, Interest Charges begin to accrue from
the day a transaction occurs. However, we will not charge You interest on any new balances
posted to the purchase Segment of Your Account provided You have paid Your previous
balance in full by the due date.
We will treat the following Fees as purchase transactions unless otherwise specified below.
These Fees apply to Your Account only if they are provided in Your Truth in Lending
Disclosures. We may increase Your Interest Charges and Fees as described in the Changes
to Your Agreement section or in Your Truth in Lending Disclosures.
Late Payment Fee. We may charge You this Fee if we do not receive Your payment in time
for us to credit it by the due date shown on Your Statement.
Overlimit Fee. You will not have a fee for going over Your credit limit, but Your credit
score may be adversely affected and the transaction may be declined, depending on the
amount of the overage.
Returned Payment Fee. We may charge You this Fee each time any payment You make to
us is not paid by Your financial institution for any reason, even if that institution later pays
it.
Expedited Payment Fee. We may charge You this Fee each time You request to make a
payment over the phone. Before we charge You this fee, we will notify You of the amount
and provide an opportunity to opt out of this service.
Copying Fee. We may charge You a Fee for copies of transaction documents or Statements
unless they are required to resolve a billing dispute.
Express Delivery Fee. We may charge You this Fee each time You request express delivery
of any Account documentation. Before we charge You this fee, we will notify You of the
amount and provide an opportunity to opt out of this service.
Balance Transfer Fee. Balance Transfers are not available for Your Card.
Cash Advance Fee. Cash Advance is not available for Your Card.
Foreign Transaction Fee. We do not charge a fee for foreign transactions.
Transactions Made in Foreign Currencies: If You make a transaction in a foreign
currency, the Payment Card Network will convert it into a U.S. dollar amount. The Payment

Card Network will use its own currency conversion procedures. The conversion rate in
effect on the processing date may differ from the rate in effect on the transaction date that
appears on Your Statement. We do not adjust the currency exchange rate or charge any
currency conversion Fees.
No Warranties.
Except as otherwise provided in the “Billing Rights Summary” part of Your Statements, we
are not responsible for any claim You might have regarding the purchases of goods or
services made with Your Card.
Merchant Refunds.
If You are entitled to a refund for goods or services purchased with Your Card, You will
accept these refunds as credits to the purchase Segment of Your Account. We do not control
when a merchant sends us Your refund. We will also have a reasonable amount of time
after we receive Your refund to process it.
Minimum Payment.
Your Statement will provide instructions for making payments, including the amounts due
and the due date for receiving Your payment. If applicable, Your Statement will also include
a minimum payment amount. To avoid a Late Payment Fee, You must pay us at least this
minimum payment amount by the due date provided in the Statement.
Your minimum payment will equal the greater of: $15 (or Your full balance if it’s less than
$15); 3% of Your ending balance for the Statement; or the total amount by which You have
exceeded Your credit limit (if applicable).
In addition to the minimum payment, You may pay all or part of the total balance on Your
Account. However, You must still pay at least the minimum payment amount each month,
even if You paid greater than the minimum on the previous Statement.
We will continue to charge Interest Charges during Billing Cycles when You carry a balance
regardless of whether Your Statement includes a minimum payment that is due. If Your
Account is 180 days past due, part of a bankruptcy proceeding or otherwise charges off, the
entire balance is immediately due and payable.

Making Payments.
Your payments must be in U.S. dollars from a U.S. deposit account and otherwise be
acceptable to us. We do not accept cash payments. You may not make payments with funds
from Your Account with us.
Mailed Payments.
You must mail payments to us at the address provided on Your Statement or as otherwise
instructed by us or our agents. We will credit it to Your Account on the day we receive it, if:
•

You send the payment coupon included with Your Statement;

•

in the same envelope with Your payment;

•

You include Your Account number on Your payment; and

•

Your payment arrives at the address indicated on the payment coupon in our
processing center by the time indicated on Your Statement.

If Your due date occurs on a day on which we do not receive payments, any payment
received the next day which conforms to the above requirements will not be treated as late.
Please allow at least 7 days for postal delivery. Unless we or our agents specifically instruct
You to remit payment in a different manner, payments received at any other location or in
any other form might not be credited for up to 5 days. This might cause You to be charged
late payment Fees and additional Interest Charges.
Faster Payment Services.
We may make services available that allow You to make faster payments through a
customer service representative using a telephone, the internet, or other payment system.
We will describe the terms for using these services before You use them. You do not have to
use these other payment services, and we may charge You a Fee for using them. If we do,
we will tell You the amount of the Fee at the time You request the service. We are not
responsible if a payment made using our payment services is rejected or not paid. Even if it
is, we may still keep the Fee. If You give Your Account number or other Account
information to someone else to make a payment for You, we may provide them limited
Account information necessary for the payment and process their payment as if You made
it. We may refuse to accept any payment made by someone else for Your Account. If we

accept a payment made by someone else for Your Account, You will be responsible for the
payment made even if that payment is rejected or not paid.
Payment Processing.
We may accept and process payments without losing any of our rights. Even if we credit
Your payment to Your Account, we may delay the availability of credit until we confirm that
Your payment has cleared. We may resubmit and electronically collect returned payments.
We may also adjust Your Account as necessary to correct errors, to process returned and
reversed payments, and to handle similar issues.
When You provide an Item as payment, You authorize us either to use information from
Your Item to make a one-time electronic fund transfer from Your deposit account or to
process the payment as an Item. We will provide additional information about this process
on Your Statement or other documents we send You before Your payment.
When You provide an Item as payment, it might also be converted into an electronic image
and collected and returned electronically. These electronic images may also be converted
to substitute checks. We will not be responsible if an Item You provide has physical
features that when imaged result in it not being processed as You intended.
How We Apply Your Payments.
We apply Your payments to the higher Annual Percentage Rate balances before the lower
ones. In all cases, we will apply payments and credits in accordance with applicable law.
Available credit created as a result of payments posted to Your Account may not be
available for up to seven (7) days, or longer if circumstances warrant an additional hold, or
if we deem ourselves at risk for any reason.
Items with Restrictive Words, Conditions, or Instructions.
Our acceptance of payments labeled “payment in full” or restrictive words to that or any
similar effect, will not constitute an accord and satisfaction nor a waiver of any rights we
have to receive a full payment on all balances due.

Credit Balances.
We may reject and return to You any payment that creates a credit balance on Your
Account. Any credit balance we allow will not be available until we confirm that Your
payment has cleared. We may reduce the amount of any credit balance by any new
amounts billed to Your Account. You may contact us as provided on Your Statement and
request a refund of any available credit balance. If You contact us in writing, we will refund
Your credit balance within 7 Business Days from our receipt of Your written request.
Account Default.
We may consider You in default of Your Agreement with us if:
•

You do not make any payment when it is due;

•

any payment You make is rejected, not paid, or cannot be processed;

•

You exceed a credit limit;

•

a bankruptcy or other insolvency proceeding is filed by or against You;

•

You die or are legally declared incompetent or incapacitated;

•

we determine that You made a false, incomplete, or misleading statement on any of
Your Account documentation or You otherwise try to defraud us;

•

You do not comply with any term of this Agreement or any other agreement with us;
or

•

You permanently reside outside the United States.

For certain actions, including changing the rates and Fees on Your Account, our options
appear in our original offer materials when You opened Your Account. Remember, paying
the Fees charged in connection with a default will not by itself cure the default. In addition,
if You are in default, we may take the following actions without notifying You, unless the
law says that we must notify You:
•

close or suspend Your Account;

•

lower Your credit limits;

•

increase Your minimum payment;

•

demand that You immediately pay the entire balances owing on Your Account;

•

continue to charge You Interest Charges and Fees as long as Your balances remain
outstanding; and/or

•

pursue any other action against You that the law allows, which includes the filing of
a lawsuit against You.

You must pay us all of our collection expenses, attorneys’ fees, and court costs unless the
law does not allow us to collect these amounts.
Communications.
We and our service providers may contact You from time to time regarding Your Account.
We may contact You in any manner we choose unless the law says that we cannot. For
example, we may:
•

contact You by mail, telephone, email, fax, recorded message, text message, or
personal visit;

•

contact You using an automated dialing or similar device (“Autodialer”);

•

contact You at Your home and at Your place of employment;

•

contact You by social media;

•

contact You on Your mobile telephone;

•

contact You at any time, including weekends and holidays;

•

contact You with any frequency;

•

leave prerecorded and other messages on Your answering machine/service and
with others; and

•

identify ourselves, Your relationship with us, and our purpose for contacting You
even if others might hear or read it.

Our contacts with You about Your Account are not unsolicited and might result from
information we obtain from You or others. We may monitor or record any conversation or
other communication with You. Unless the law says we cannot, we may modify or suppress
caller ID and similar services and identify ourselves on these services in any manner we
choose. When You give us or we obtain Your mobile telephone number, we may contact
You at this number using an Autodialer and can also leave prerecorded and other
messages. We may do these things whether we contact You or You contact us. If You ask us
to discuss Your Account with someone else, You must provide us with documents that we
ask for and that are acceptable to us.

Credit Reports.
We may provide information about You and the Account to consumer (credit) reporting
agencies and others as provided in our Privacy Notices. Information we provide might
appear on Your credit reports. This could include negative information if You do not
comply with the terms of this Agreement. We may obtain and use credit and income
information about You from consumer (credit) reporting agencies and others as the law
allows.
Closing or Suspending Your Account.
Arizona, California, Idaho, Louisiana, New Mexico, Nevada, Texas, Washington, and
Wisconsin Residents: Either You or Your spouse may ask us to close Your Account at
any time by calling us at 1-800-418-2362 or by calling or writing us as described on
Your Statement. Your Statement will provide additional information about this process,
and we may also separately provide You with additional details after Your request. This
might include payment information.
All Cardholders: You may ask us to close Your Account at any time by calling us at 1-800418-2362 or by calling or writing to us as described on Your Statement. Your Statement
will provide additional information about this process and we may also separately provide
You with additional details after Your request. This might include payment information.
Termination of Your Account will not affect Your obligation to pay the Account balance plus
any finance and other charges You or Your spouse owe under this Agreement. Your
obligation to pay the Account balance plus any finance and other charges You owe under
this Agreement are subject to all applicable laws and regulations regarding repayment
requirements. Any physical card You may receive in the future remains our property and
You must recover and surrender to us all Cards upon request or upon termination of this
Agreement.
If You use Your Card or charges post to Your Account after You ask us to close it, we may
keep it open or reopen it.
We may close or suspend Your Account and Your right to obtain credit from us. We may do
this at any time and for any reason permitted by law, even if You are not in default on Your
account with us. A suspension of Your Account might be permanent or temporary.

If Your Account is closed or suspended for any reason, You must stop using Your Card. You
must also cancel all billing arrangements to the Account. We will not do this for You. If we
close or permanently suspend Your Account, You must also destroy all Cards. You must still
pay us all amounts You owe on the Account, even if they are charged after Your Account is
closed or suspended.
Lost or Stolen Card.
You will take reasonable steps to prevent the unauthorized use of Your Card and Account. If
Your Card or Card Information is lost or stolen or if someone else might be using it without
Your permission, You must tell us at once. You may tell us by calling the telephone number
in the App, and on Your Statement or by writing us at the address on Your Statement. You
will not be responsible for charges made to Your Account that are found by us to be
unauthorized. If we reimburse Your Account for unauthorized charges made using Your
Card, You will help us investigate, pursue, and get reimbursement from the wrongdoer.
Your help includes giving us documents that we ask for and that are acceptable to us.
Your Representations and Warranties.
By accepting this Cardholder Agreement, and by activating, using, or authorizing the use
of Your Card, You represent and warrant to us that: (i) You are at least 18 years of age
(or that You have reached the age of majority if You reside in a state where the age of
majority is 19 years or older); (ii) the personal information that You provide to us in
connection with the Card is true, correct and complete; (iii) You received a copy of this
Cardholder Agreement and agree to be bound by and comply with its terms; and (iv)
that You accept the Card.
Changes to Your Agreement.
At any time, we may add, delete, or change any term of this Agreement unless the law
prohibits us from doing so. We will give You notice of any changes as required by law. If we
do notify You of changes, we will send You a separate notice or inform You on Your
Statement. We may send this notice to You electronically as permitted by law. Our notice

will tell You when and how the changes will take effect and describe any rights You have in
connection with the changes.
If we increase Your Fees or other terms of Your Account we will notify You in writing and
inform You of Your options in advance, including the right to opt out of some of these
changes.
If Your payment is not received within 60 days after the payment due date, we may
increase Your Interest Charges and Fees for existing balances and new transactions at any
time. We may change any other terms of Your Account at any time.
The Law that Applies to Your Agreement.
The issuer of Your Card is Celtic Bank, a Utah-Chartered Industrial Bank, Member FDIC. In
accepting a Deserve MasterCard, You agree to the following provisions: (1) This Agreement
(including account and services related to this account) will be interpreted by the laws of
the state of Utah. This means that the laws of the state of Utah will govern any dispute
arising from or relating to this Agreement. Federal law will also be used when it
applies. (2) You waive any applicable statute of limitations as the law allows. Otherwise,
the applicable statute of limitations period for all provisions and purposes under this
Agreement (including the right to collect debt) will be the longer period provided by Utah
law or the law in the jurisdiction where You live. (3) Regarding venue, You agree to submit
to the jurisdiction of the state of Utah and federal courts in and for Salt Lake City and Salt
Lake County, Utah. This means that any dispute, action or proceeding relating to this
Agreement will be brought in the Federal District Court of Utah or state court in the county
of Salt Lake City. (4) See applicable Arbitration Provision below.
Accordingly, it is important that You read the provisions of this section, the Arbitration
Provision below, and the entire Agreement carefully. If any part of this Agreement is found
to be unenforceable, the remaining parts will remain in effect.
WAIVER OF JURY TRIAL
Unless prohibited by applicable law, if You sign this Agreement, You waive Your right to
have a jury trial to resolve any claim (defined below in the Arbitration Provision) You may
have against us, our service providers, our respective affiliates or a related third party. This

Waiver of Jury Trial provision does not apply to You if, at the time of entering into this
Agreement, You are a resident of Arkansas or a member of the armed forces or a dependent
of such a member covered by the Federal Military Lending Act.
CLASS ACTION WAIVER
Unless prohibited by applicable law, if You sign this Agreement, You waive Your right to ask
a court or an arbitrator to allow You to pursue any Claims on a class action basis or in a
representative capacity on behalf of the general public, other borrowers or other persons
similarly situated. Furthermore, Claims brought by You against us or by us against You
may not be joined or consolidated with claims brought by or against someone other than
You, unless otherwise agreed to in writing by all parties. For purposes of this Class Action
Waiver, the terms “we,” “us” and “our” shall also include Celtic Bank and each of its
employees, directors, officers, shareholders, governors, managers, members, parent
companies, affiliated entities, successors or assignees (including but not limited to Deserve,
Inc.), the servicer of Your Card and any third party who is named as a co-defendant with us
in a claim asserted by You. In the event of a conflict between this CLASS ACTION WAIVER
provision and the ARBITRATION PROVISION, the ARBITRATION PROVISION shall control.
This CLASS ACTION WAIVER does not apply to You if, at the time of entering into this
Agreement, You are a Covered Borrower under the Military Lending Act.
ARBITRATION PROVISION
Arbitration is a process in which persons with a dispute(s): (a) agree to submit their
dispute(s) to a neutral third person (an "arbitrator") for a decision; and (b) waive their
rights to file a lawsuit in court to resolve their dispute(s). Each party to the dispute(s) has
an opportunity to present some evidence to the arbitrator. Pre-arbitration discovery may
be limited. Arbitration proceedings are private and less formal than court trials. The
arbitrator will issue a final and binding decision resolving the dispute(s), which may be
enforced as a court judgment. A court rarely overturns an arbitrator's decision.
THIS ARBITRATION PROVISION APPLIES UNLESS (1) YOU HAVE EXERCISED OR
EXERCISE YOUR RIGHT TO REJECT ARBITRATION OR (2) AS OF THE DATE OF THIS

AGREEMENT, YOU ARE A MEMBER OF THE ARMED FORCES OR A DEPENDENT OF
SUCH MEMBER COVERED BY THE FEDERAL MILITARY LENDING ACT. IF YOU WOULD
LIKE MORE INFORMATION ABOUT WHETHER YOU ARE COVERED BY THE MILITARY
LENDING ACT, IN WHICH CASE THIS ARBITRATION PROVISION DOES NOT APPLY TO
YOU, PLEASE CONTACT US AT 1-800-316-7258.
READ THIS ARBITRATION PROVISION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL
IMPACT ON HOW LEGAL CLAIMS YOU AND WE HAVE AGAINST EACH OTHER ARE
RESOLVED.
YOU HAVE THE RIGHT TO OPT-OUT OF (NOT BE BOUND BY) THIS ARBITRATION
PROVISION AS DESCRIBED BELOW. IF YOU DO NOT DO SO:
a. YOU ARE WAIVING YOUR RIGHT TO HAVE A JURY OR A COURT, OTHER
THAN A SMALL CLAIMS COURT OR SIMILAR COURT OF LIMITED
JURISDICTION, RESOLVE ANY CLAIM THAT IS SUBJECT TO
ARBITRATION; and
b. YOU ARE WAIVING YOUR RIGHT TO SERVE AS A REPRESENTATIVE, AS A
PRIVATE ATTORNEY GENERAL, OR IN ANY OTHER REPRESENTATIVE
CAPACITY, AND/OR TO PARTICIPATE AS A MEMBER OF A CLASS OF
CLAIMANTS, IN COURT OR IN ARBITRATION WITH RESPECT TO ANY
CLAIM THAT IS SUBJECT TO ARBITRATION.
THEREFORE, YOU ACKNOWLEDGE AND AGREE AS FOLLOWS:
Interstate Commerce
This Arbitration Provision is made pursuant to a transaction involving interstate commerce
and shall be governed by the Federal Arbitration Act (“FAA”), 9 U.S.C. § 1 et seq., and not by
any state arbitration law.
Scope
For purposes of this Arbitration Provision, the word “Claim” has the broadest possible
meaning and includes, without limitation (a) all federal or state law claims, disputes or

controversies, whether preexisting, present or future, arising from or relating directly or
indirectly to this Agreement, the relationship between You and us, the information You
gave us before entering into this Agreement, including Your application, and/or any past
agreement or agreements between You and us, any loan or credit product or related
product or services obtained from us and any advice, recommendations, solicitations,
communications, disclosures, promotions or advertisements concerning the same; (b) all
initial claims, counterclaims, cross-claims and third-party claims and claims which arose
before the effective date of this Arbitration Provision; (c) all common law claims based
upon contract, tort, fraud, or other intentional torts; (d) all claims based upon a violation of
any local, state or federal constitution, statute, ordinance or regulation, including without
limitation all claims alleging unfair, deceptive or unconscionable trade practices; (e) all
claims asserted by us against You, including claims for money damages to collect any sum
we claim You owe us; (f) all claims asserted by You individually against us and/or any of
our employees, directors, officers, shareholders, governors, managers, members, parent
company or affiliated entities, or assignees (including but not limited to Deserve, Inc.) or
against the servicer of Your Card (hereinafter collectively referred to as "related third
parties"), including claims for money damages, restitution and/or equitable or injunctive
relief; (g) claims asserted by You against other persons and entities if You assert a Claim
against such other persons and entities in connection with a Claim You assert against us or
related third parties; and (h) all data breach or privacy claims arising from or relating
directly or indirectly to the disclosure by us or related third parties of any non-public
personal information about You. Notwithstanding the foregoing, the word “Claim” does not
include any dispute or controversy about the validity, enforceability, coverage or scope of
this Arbitration Provision or any part thereof (including, without limitation, the provision
titled "Class Action Waiver" set forth below, subparts A and B of the provision titled
"Binding Effect; Survival; Severability" set forth below and/or this sentence); all such
disputes or controversies are for a court and not an arbitrator to decide. However, any
dispute or controversy that concerns the validity or enforceability of the Agreement as a
whole is for the arbitrator, not a court, to decide. In addition, this Arbitration Provision will
not apply to (1) any individual action brought by You in small claims court or Your state’s
equivalent court, unless such action is transferred, removed, or appealed to a different

court; or (2) any disputes that are the subject of a class action filed in court that is pending
as of the effective date of this Arbitration Provision in which You are alleged to be a
member of the putative class for as long as such class action is pending.
Class Action Waiver
Notwithstanding any other provision of this Arbitration Provision, if either You or
we elect to arbitrate a Claim, neither You nor we will have the right: (a) to participate
in a class action, private attorney general action or other representative action in
court or in arbitration, either as a class representative or class member, or (b) to join
or consolidate Claims with Claims of any other persons. (Provided, however, that the
Class Action Waiver does not apply to any lawsuit or administrative proceeding filed
against us by a state or federal government agency even when such agency is seeking
relief on behalf of a class of borrowers including You. This means that we will not
have the right to compel arbitration of any claims brought by such an agency). An
award in arbitration shall determine the rights and obligations of the named parties
only, and only with respect to the Claim(s) in arbitration, and shall not (i) determine
the rights, obligations, or interests of anyone other than a named party, or resolve
any Claim of anyone other than a named party; nor (ii) make an award for the benefit
of, or against, anyone other than a named party. No arbitration administrator or
arbitrator shall have the power or authority to waive, modify, or fail to enforce this
section, and any attempt to do so, whether by rule, policy, arbitration decision or
otherwise, shall be invalid and unenforceable. Any challenge to the validity of this
Class Action Waiver shall be determined exclusively by a court and not by the
administrator or any arbitrator.
Electing Arbitration
A party may elect arbitration of a Claim by sending the other party written notice by
certified mail return receipt requested of their intent to arbitrate and setting forth the
subject of the dispute along with the relief requested. Your notice must be sent to Celtic
Bank, 268 South State Street, #300, Salt Lake City, Utah 84111, and our notice must be
sent to the most recent address for You in our files. If a lawsuit concerning the Claim has

been filed, such notice can be provided by papers filed in the lawsuit, such as a motion to
compel arbitration.
Administrator
Regardless of who demands arbitration, You shall have the right to select either of the
following arbitration organizations to administer the arbitration: the American Arbitration
Association, 120 Broadway, Floor 21, New York, NY 10271 (1-800-778-7879),
http://www.adr.org; or JAMS, 8401 N. Central Expressway, Suite 610, Dallas, TX 75225 (1800-352-5267), http://jamsadr.com. However, the parties may agree to a local arbitrator
who is an attorney, retired judge, or arbitrator registered and in good standing with a bona
fide arbitration association and arbitrate pursuant to the arbitrator’s rules. If the AAA and
JAMS are unable or unwilling to serve as administrator, or the parties are unable to agree
upon another administrator, a court with jurisdiction shall determine the administrator or
arbitrator. The arbitration hearing will take place at a location reasonably convenient to
where You reside.
If You demand arbitration, You must inform us in Your demand of the arbitration
organization You have selected or whether You desire to select a local arbitrator. If related
third parties or we demand arbitration, You must notify us within 20 days in writing by
certified mail, return receipt requested, of Your decision to select an arbitration
organization or Your desire to select a local arbitrator. Your notice must be sent to Celtic
Bank, 268 South State Street, #300, Salt Lake City, Utah 84111. If You fail to notify us,
then we have the right to select an arbitration organization. The arbitration will be
governed by the rules and procedures of this arbitration organization applicable to
individual consumer disputes. You may get a copy of the rules and procedures by
contacting the arbitration organization listed above. In an event of a conflict between the
provisions of the Arbitration Provision, on the one hand, and any applicable rules of the
AAA or JAMS or other administrator used or any other terms of this Agreement, on the
other hand, the provisions of this Arbitration Provision shall control. If a party files a
lawsuit in court asserting Claim(s) that are subject to arbitration and the other party files a
motion to compel arbitration with the court which is granted, it will be the responsibility of

the party prosecuting the Claim(s) to select an arbitration administrator in accordance
with this paragraph and commence the arbitration proceeding in accordance with the
administrator’s rules and procedures.
Non-Waiver
Even if all parties have opted to litigate a Claim in court, You or we may elect arbitration
with respect to any Claim made by a new party or any Claim later asserted by a party in
that or any related or unrelated lawsuit (including a Claim initially asserted on an
individual basis but modified to be asserted on a class, representative or multi-party basis).
Nothing in that litigation shall constitute a waiver of any rights under this Arbitration
Provision. For example, if we file a lawsuit against You in court to recover amounts due
under the Agreement, You have the right to request arbitration, but if You do not elect to
request arbitration, we reserve and do not waive the right to request arbitration of any
Claim (including any counterclaim) You later assert against us in that or any related or
unrelated lawsuit. This Arbitration Provision will apply to all Claims, even if the facts and
circumstances giving rise to the Claims existed before the effective date of this Arbitration
Provision.
Arbitrator and Award
Any arbitrator must be a practicing attorney with ten or more years of experience or a
retired judge. The arbitrator will not be bound by judicial rules of procedure or evidence
that would apply in a court, nor by state or local laws that relate to arbitration proceedings.
The arbitrator will apply the same statutes of limitations and privileges that a court would
apply if the matter were pending in court. The arbitrator may decide, with or without a
hearing, any motion that is substantially similar to a motion to dismiss for failure to state a
claim or a motion for summary judgment. In determining liability or awarding damages or
other relief, the arbitrator will follow the applicable substantive law, consistent with the
FAA, which would apply if the matter had been brought in court. The arbitrator may award
any damages or other relief or remedies that would apply under applicable law to an
individual action brought in court, including, without limitation, punitive damages (which
shall be governed by the Constitutional standards employed by the courts) and injunctive,

equitable and declaratory relief (but only in favor of the individual party seeking relief and
only to the extent necessary to provide relief warranted by that party’s individual claim).
No arbitration award involving the parties will have any preclusive effect as to issues or
claims in any dispute involving anyone who is not a party to the arbitration, nor will an
arbitration award in prior disputes involving other parties have preclusive effect in an
arbitration between the parties to this Arbitration Provision.
Fees and Costs
At Your written request, we will pay all filing, hearing and/or other fees charged by the
administrator and arbitrator to You for Claim(s) asserted by You in an individual
arbitration after You have paid an amount equivalent to the fee, if any, for filing such
Claim(s) in state or federal court (whichever is less) in the judicial district in which You
reside. (If You have already paid a filing fee for asserting the Claim(s) in court, You will not
be required to pay that amount again). We will not seek reimbursement of such fees from
You even if we prevail in the arbitration. In addition, the administrator may have a
procedure whereby You can seek a waiver of fees charged to You by the administrator and
arbitrator. We will always pay any fees or expenses that we are required to pay by law or
the administrator’s rules or that we are required to pay for this Arbitration Provision to be
enforced. The arbitrator will have the authority to award fees and costs of attorneys,
witnesses and experts to the extent permitted by this Agreement, the administrator’s rules
or applicable law. With respect to Claim(s) asserted by You in an individual arbitration, we
will pay Your reasonable attorney, witness and expert fees and costs if and to the extent
You prevail, if applicable law requires us to or if we must bear such fees and costs in order
for this Arbitration Provision to be enforced. At the timely request of either party, the
arbitrator shall write a brief explanation of the grounds for the decision.
Appeal
The arbitrator’s award shall be final and binding on all parties, except for any right of
appeal provided by the FAA. However, if the amount in controversy exceeds $50,000, and if
permitted by the Administrator’s rules, You or we can, within 14 days after the entry of the
award by the arbitrator, appeal the award to a three-arbitrator panel administered by the

Administrator. The panel shall reconsider anew any aspect of the initial award requested
by the appealing party. The decision of the panel shall be by majority vote. Reference in this
Arbitration Provision to “the arbitrator” shall mean the panel if an appeal of the arbitrator’s
decision has been taken. The costs of such an appeal will be borne in accordance with the
paragraph above titled “Fees and Costs.” Any final decision of the appeal is subject to
judicial review only as provided under the FAA. A judgment on the award may be entered
by any court having jurisdiction.
Notice and Cure; Special Payment
Prior to initiating a Claim, You may send us a written Claim Notice. In order for a Claim
Notice to be valid and effective, it must: (a) state Your name, address and Account number;
(b) be signed by You; (c) describe the basis of Your Claim and the amount You would accept
to resolve the Claim; (d) state that You are exercising Your rights under the “Notice and
Cure” paragraph of the Arbitration Provision; and (e) be sent to us by certified mail, return
receipt requested, at Celtic Bank, Attn: General Counsel, 268 South State Street, #300,
Salt Lake City, Utah 84111. This is the sole and only method by which You can submit a
Claim Notice. Upon receipt of a Claim Notice, we will credit You for the standard cost of a
certified letter. You must give us a reasonable opportunity, not less than 30 days, to resolve
the Claim. If, and only if, (i) You submit a Claim Notice in accordance with this paragraph on
Your own behalf (and not on behalf of any other party); (ii) You cooperate with us by
promptly providing the information we reasonably request; (iii) we refuse to provide You
with the relief You request before an arbitrator is appointed; and (iv) the matter then
proceeds to arbitration and the arbitrator subsequently determines that You were entitled
to such relief (or greater relief), You will be entitled to a minimum award of at least $7,500
(not including any arbitration fees and attorneys’ fees and costs to which You will also be
entitled). We encourage You to address all Claims You have in a single Claim Notice and/or
a single arbitration. Accordingly, this $7,500 minimum award is a single award that applies
to all Claims You have asserted or could have asserted in the arbitration, and multiple
awards of $7,500 are not contemplated.

Binding Effect; Survival; Severability
This Arbitration Provision is binding upon and benefits You, Your respective heirs,
successors and assigns. The Arbitration Provision is binding upon and benefits us, our
successors and assigns, and related third parties. The Arbitration Provision shall survive
any bankruptcy to the extent consistent with applicable bankruptcy law. The Arbitration
Provision survives any termination, amendment, expiration or performance of this
Agreement and any transaction between You and us and continues in full force and effect
unless You and we otherwise agree in writing. If any part of this Arbitration Provision is
deemed or found to be unenforceable for any reason, the remainder shall be enforceable,
except as follows:
a. The parties to this Arbitration Provision acknowledge that the provision titled
"Class Action Waiver" is material and essential to the arbitration of any disputes
between the parties and is non-severable from this Arbitration Provision. If the
Class Action Waiver is limited, voided or found unenforceable, then the parties'
Arbitration Provision (except for this sentence) shall be null and void with respect
to such proceeding, subject to the right to appeal the limitation or invalidation of the
Class Action Waiver. The parties acknowledge and agree that under no
circumstances will a class action be arbitrated.
b. If a Claim is brought seeking public injunctive relief and a court determines that the
restrictions in the provision titled "Class Action Waiver" prohibiting the arbitrator
from awarding relief on behalf of third parties are unenforceable with respect to
such Claim (and that determination becomes final after all appeals have been
exhausted), the Claim for public injunctive relief will be determined in court and any
individual Claims seeking monetary relief will be arbitrated. In such a case the
parties will request that the court stay the Claim for public injunctive relief until the
arbitration award pertaining to individual relief has been entered in court. In no
event will a Claim for public injunctive relief be arbitrated.
Opt-Out Process
You may choose to opt out of this Arbitration Provision but only by following the process
set forth below. If You do not wish to be subject to this Arbitration Provision, then You

must notify us in writing postmarked within sixty (60) calendar days of the date of this
Agreement at the following address: Celtic Bank, 268 South State Street, #300, Salt Lake
City, Utah 84111. Your notice must be sent to us by certified mail, return receipt
requested. Upon receipt of an Opt-Out Notice, we will credit You for the standard cost of a
certified letter. Your Opt-Out Notice must include Your name, address, Social Security
number, the date of this Agreement, a statement that You wish to opt out of the Arbitration
Provision and must not be sent with any other correspondence. Indicating Your desire to
opt out of this Arbitration Provision will not affect Your other rights or responsibilities
under this Agreement and applies only to this Arbitration Provision between You and us.
Military Lending Act Disclosure.
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credit card
account). To be provided with an oral disclosure of this information, please call toll-free 1800-316-7258.
Waiver.
We, our agents, assigns, successors, service providers, and the respective affiliates will not
lose any of our rights if we delay taking any action for any reason or if we do not notify You.
For example, we may waive Your Interest Charges or Fees without notifying You and
without losing our right to charge them in the future. We may always enforce our rights
later and may take other actions not listed in this Agreement if the law allows them. You do
not have to receive notice from us of any waiver, delay, demand or dishonor. We may
proceed against You before proceeding against someone else.

Assignment.
This Agreement will be binding on, and benefit, any of Your and our successors and assigns.
You may not transfer Your Account or Your Agreement to someone else without our
written permission.
We may transfer Your Account and this Agreement to another company or person without
Your permission and without prior notice to You. They will take our place under this
Agreement. You must pay them and perform all of Your obligations to them and not us. If
You pay us after You are informed or learn that we have transferred Your Account or this
Agreement, we can handle Your payment in any way we think is reasonable.
This includes returning the payment to You or forwarding the payment to the other
company or person.
We reserve the right to use third party service providers to perform any activity we are
permitted or obligated to perform under this Cardholder Agreement, to the extent
permitted by applicable law.
The Deserve Card Cash Back Program
Cash Back.
●

With The Deserve Card, You will earn cash rewards, in the form of statement credits
by using Your card for purchases. You will not earn cash rewards on ATM
withdrawals, cash advances or balance transfers (ATM withdrawals, cash advances,
and balance transfers are not available). The following types of transactions won’t
count and won’t earn points: purchase of travelers checks, foreign currency, money
orders, wire transfers or similar cash-like transactions, lottery tickets, casino
gaming chips, race track wagers or similar betting transactions, any checks that
access Your account, interest, unauthorized or fraudulent charges, interest, and fees
of any kind, including an annual fee, if applicable.

●

There are three tiers of cash rewards You will earn based on the amount You spend
using The Deserve Card within each billing period. At end of each billing period,
Your cash back will be calculated by multiplying the total amount You spent (minus
any returns, account fees, and interest charges) within each cycle.

○ 1.0% cash back. You will earn 1.0% (one percent) cash back on all
purchases up to $500. At the end of each billing period, Your cash back will
be calculated by multiplying the total amount You spent (minus any returns,
account fees, and interest charges) by 1% (.01).
○ 1.25% cash back. Once the $500 per billing cycle limit is exceeded in any
billing period You will earn 1.25% cash back on all purchases. At the end of
each billing period, Your cash back will be calculated by multiplying the total
amount You spent (minus any returns, account fees, and interest charges) by
1.25% (.0125).
○ 1.5% cash back. Once the $1,000 per billing cycle limit is exceeded in any
billing period You will earn 1.5% cash back on all purchases. At the end of
each billing period, Your cash back will be calculated by multiplying the total
amount You spent (minus any returns, account fees, and interest charges) by
1.5% (.015).
●

From time to time, You may receive promotional offers which allow for additional
cash back. These offers will not be available if Your account is closed or delinquent
on the date we determine whether You have met the terms of the offer.

●

Purchases do not include items returned for credit, and interest and account fees.

Redeeming Cash Back
●

You control the amount of cash back You wish to redeem.

●

Cash back redemptions are applied as statement credits against the balance on The
Deserve Card.

●

Cash back redemptions cannot exceed Your card balance. For example, if You have
$27 in accrued cash back and The Deserve Card balance at the end of the cycle is
$15, You are able to get a statement credit of $15 for the cycle. The remaining $12
will be held over for use in a future period.

●

Redemption is not available if the account is closed, delinquent or over limit. In the
event of a lost or stolen card, or we issue a new account number, we will transfer
Your cash back to the new account. If the account does not qualify for redemption,
redeemable balances will be re-evaluated in the next distribution period.

●

Cash back rewards have no expiration while the account is open and this program
remains in effect.

Value of Cash Rewards
Cash rewards have no cash value until eligible cash rewards are redeemed as a statement
credit. You may not assign, transfer, or pledge Your cash rewards. You have no property
rights or other legal interest in cash rewards.
Deserve retains the right to add, modify or delete any benefit, service, or feature of Your
Account at our discretion. We may change the terms of The Deserve Card Cash Back
Program at our discretion.

Glossary.
Account means Your Card Account with us.
Annual Percentage Rate, or APR, is the percentage You are charged annually for the debt
that You accrue.
App or Mobile App means the Deserve software application downloaded by a user to a
mobile device that allows access to the card and card servicing.
Billing Cycle means a period of time that might vary in length but is approximately 30
days. The specific period of time is described on each Statement. However, You will have a
Billing Cycle even if a Statement is not required.
We will often specify a Billing Cycle by the month in which its closing date occurs as
provided on the Statement. For example, a “March Billing Cycle” will have a closing date in
March. We may also refer to a Billing Cycle as a “Billing Period.” If Your Account balance has
charged off, we may switch to quarterly Billing Cycles to Your Account.
Business Day means any day our offices are open for the processing of payments and
credits.
Card means any physical, digital, or virtual card or other means to access an Account. It
also means any other access device, such as a physical card, we give You that allows You to
obtain credit.

Credit means an accounting entry that decreases a liability; in this case, Your outstanding
balance with Deserve.
Credit Limit means the amount of credit extended to You.
Daily Periodic Rate, is calculated at 1/365 of Your APR.
Fees means conditional charges imposed on Your Account that are not based on the Annual
Percentage Rates.
Interest Charges means any charges to Your Account based on the application of Annual
Percentage Rates.
Item means a check, draft, money order, or other negotiable instrument You use to pay
Your Account. This includes any image of these instruments.
Payment Card Network means MasterCard International Incorporated, or any other
network provider displayed on the Card.
Segments means the different parts of Your Account we may establish that are subject to
unique pricing, grace periods, or other terms. We create these parts of Your Account for
such things as Your purchases and Special Transfers.
Special Transfer means a Transfer posted to the Special Transfer Segment of Your
Account and not to Your purchase Segment.
Statement means a document or information we provide to You showing Account
information including, among other things, transactions made to Your Account during a
Billing Cycle. We might also refer to Your Statement as a “Periodic Statement” or a “Billing
Statement.”
Transfers means balances transferred from other Accounts to this Account and includes
Balance Transfers and Special Transfers.
Truth in Lending Disclosure means any Account information we provide to You that is
required by the federal Truth in Lending Act and Regulation Z. These include Your
application and solicitation disclosures, Account opening disclosures, subsequent
disclosures, Statements, and change in terms notices.

YOUR BILLING RIGHTS
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells You about Your rights and our responsibilities under the Fair Credit Billing
Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If You think there is an error on Your statement, write to us at:
Deserve, Inc.
PO Box 57780
Murray, UT 84157-0780
In Your correspondence, give us the following information:
•

Account information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact us:
•

Within 60 days after the error appeared on Your statement.

•

At least 3 business days before an automated payment is scheduled, if You want to
stop payment on the amount You think is wrong.

•

You must notify us of any potential errors in writing. You may call us, but if You do
we are not required to investigate any potential errors and You may have to pay the
amount in question.

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive Your letter, we must do two things:
1. Within 30 days of receiving Your letter, we must tell You that we received Your
letter. We will also tell You if we have already corrected the error.
2. Within 90 days of receiving Your letter, we must either correct the error or explain
to You why we believe the bill is correct.
While we investigate whether or not there has been an error:

•

We cannot try to collect the amount in question, or report You as delinquent on that
amount.

•

The charge in question may remain on Your statement, and we may continue to
charge You interest on that amount.

•

While You do not have to pay the amount in question, You are responsible for the
remainder of Your balance.

•

We can apply any unpaid amount against Your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement of
the amount You owe and the date payment is due. We may then report You as
delinquent if You do not pay the amount we think You owe.

If You receive our explanation but still believe Your bill is wrong, You must write to us
within 10 days telling us that You still refuse to pay. If You do so, we cannot report You as
delinquent without also reporting that You are questioning Your bill. We must tell You the
name of anyone to whom we reported You as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, You do not have to pay the first $50 of the amount
You question even if Your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If You are dissatisfied with the goods or services that You have purchased with Your credit
card and You have tried in good faith to correct the problem with the merchant, You may
have the right not to pay the remaining amount due on the purchase.
To exert this right, all of the following must be true:
•

The purchase must have been made in Your home state or within 100 miles of Your
current mailing address, and the purchase price must have been more than $50.
(Note: Neither of these are necessary if Your purchase was based on

an advertisement we mailed to You, or if we own the company that sold You the
goods or services.)
•

You must have used Your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses Your credit card account do
not qualify. Deserve does not offer cash advances, ATM access, or credit card access
checks.

•

You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase, contact
us in writing at:
Deserve, Inc.
PO Box 57780
Murray, UT 84157-0780
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell You our decision. At that point, if we think You
owe an amount and You do not pay, we may report You as delinquent.
ADDITIONAL DISCLOSURES
California Residents. If You are married, You may apply for a separate account in Your
own name. As required by law, You are hereby notified that a negative credit reporting
reflecting on Your credit record may be submitted to a credit reporting agency if You fail
to fulfill the terms of Your credit obligations. After credit approval, each applicant shall
have the right to use the credit card account up to the limit of the account.
Delaware Residents. Charges not in excess of those permitted by law will be charged on
the outstanding balances from month to month.
Iowa Residents. IMPORTANT: READ BEFORE SIGNING. The terms of this Cardholder
Agreement should be read carefully because only those terms in writing are enforceable.
No other terms or oral promises not contained in this written Cardholder Agreement may
be legally enforced. You may change the terms of this Cardholder Agreement only by
another written agreement.
Kentucky Residents. You may pay the unpaid balance of Your account in whole or in part
at any time.

Maryland Residents. Finance charges will be imposed on the credit account in amounts
or at rates not in excess of those permitted by law.
Massachusetts Residents. Massachusetts law prohibits discrimination on the basis of
race, color, religious creed, national origin, sex, gender identity, marital status, or sexual
orientation.
New Hampshire Residents. If You prevail in any action, suit or proceeding we bring or in
an action You bring in connection with this Cardholder Agreement, reasonable attorneys’
fees shall be awarded to You. If You successfully assert a pertinent defense, set off,
recoupment or counterclaim to an action brought by us, the court may withhold from us
the entire amount or such portion of the attorneys’ fees as the court deems appropriate.
New Jersey Residents. (1) The section headings of this Cardholder Agreement are a table
of contents and not contract terms. (2) You agree to pay our reasonable attorney's fees, up
to 20% of outstanding principal and interest, paid in the collection of this account to an
attorney who is not our employee. (3) Provisions of this Cardholder Agreement that refer
to acts or practices that apply as permitted by, or except as prohibited by, applicable law
are applicable to New Jersey residents only to the extent that such acts or practices are
permitted by New Jersey or Federal law.
Ohio Residents. The Ohio laws against discrimination require that all creditors make
credit equally available to all credit worthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
Utah Residents: As required by Utah law, You are hereby notified that a negative credit
report reflecting on Your credit record may be submitted to a credit reporting agency if
You fail to fulfill the terms of Your credit obligations.
Vermont, Rhode Island and New York Residents: You understand and agree that we may
obtain a consumer credit report in connection with any updates, renewals or extensions of
any credit as a result of Your application and card membership. If You ask, You will be
informed whether or not such a report was obtained and, if so, the name and address of the
agency that furnished the report. You also understand and agree that we may obtain a
consumer credit report in connection with the review or collection of any extension of credit
made to You or for other legitimate purposes related to such extension of credit.

Married Wisconsin Residents: If You are married: (i) You confirm that this Account is
being incurred in the interest of Your marriage or family; (ii) no provision of any marital
property agreement, unilateral agreement, or court decree under the Wisconsin Marital
Property Act will adversely affect a creditor's interest unless, before the time credit is
granted, the creditor is furnished a copy of that agreement or decree or has actual
knowledge of the adverse provision when the obligation to the creditor is incurred; (iii)
You understand and agree that we will provide a copy of this Agreement to Your spouse for
his or her information. You must notify us if You have a spouse by sending Your name and
Your spouse's name and address to us at PO Box 57780, Murray, UT 84157-0780.
All Residents: You promise us that You are not planning to file bankruptcy at the time of
Your application for Your Account.

